#

Chris Jaye
PO Box 5015
Clinton, NJ 08809
caj @okvnews. com
Date: February 14, 2020
Chris Ann Jaye
Plaintiff

The Supreme Court of the United States
Docket____ (still waiting)

v.

Oak Knoll Village Condominium
Owners
Association, et. al.
Defendants

Proof of Service
of Various Documents

Clerk Harris (Defendant in the Matter of US District Court of Northern Iowa, 19-cv-121):
I, Chris Ann Jaye, certify that today, February 14, 2020,1 sent:
•
•
•
•
•

you - CLERK SCOTT HARRIS - a letter regarding your staffs demands for compliance,
a second $300 check for a filing fee,
a word count certification,
an application for Emergent Stay to Justice Gorsuch (original and ten copies),
this proof of service,

by tracked mail via the United States Postal Service.
I, Chris Ann Jaye, certify that today, February 14, 2020,1 sent copies of the petition for certiorari to the
alleged counsel of record for the Defendants by regular mail with a copy of the letter sent to you.
Now I have jumped through all your hoops. Docket this damn thing and have the Justices of United
States Supreme Court do what they were hired to do.

Chris Ann Jaye
Petitioner (Plaintiff)
Pro se
cc: Senator Joni Ernst (Senate Judiciary Committee)
cc: Filed with Northern District of Iowa
1

RECEIVED
FEB 1 9 2(120
OFFICE OF THE Ct-ERK
SUPREME COURT. U.S.

